                             WHITE PAPER



If It Prints, It Ships:
3D Printing and the Postal Service

July 7, 2014




                       Report Number: RARC-WP-14-011
                                                                 EXECUTIVE SUMMARY

                       If It Prints, It Ships:
               3D Printing and the Postal Service
We are living in a world where it is
                                                                      Highlights
possible to convert digital files at one
location into physical objects at another,            3D printing is in the initial stages of
transforming bits into atoms. We can do               transforming major parts of our
this with 3D printing, a technology that              economy, such as aerospace and
turns customers into creators and has the             healthcare. It also promises to
potential to make a significant impact on             revolutionize the way consumers get
the $10.5 trillion global manufacturing               customized goods by making them
industry. 3D printers build solid objects             cheaper and more accessible.
usually one razor-thin layer at a time
using plastics, powders, metals,                      Prominent industry forecasts show the
                                                      3D printing market exploding over the
polymers, or other materials. New
                                                      next several years.
techniques are rapidly expanding the
capabilities of this technology, such as              3D printing could lead to an increase in
producing surfaces as smooth as glass.                packages delivered by the Postal Service
People are already using 3D printing to               worth $485 million in new annual
create a wide range of things, from                   revenue, based on analysis of
airplane parts, dental implants, and                  commercial package volume data.
custom-fit hearings aids to personalized
iPhone cases and tiny action figures. In              Emerging 3D printing businesses could
addition, scientists are experimenting with           use the ubiquitous first- and last-mile
                                                      postal network to connect with their
using 3D printing to replicate and replace
                                                      customers.
living human tissues, producing a
“bio-ink” that could someday revolutionize            The Postal Service could partner with 3D
medical care.                                         printing businesses, perhaps using
                                                      excess space in postal facilities, to help
As 3D printing spreads and moves                      streamline the fast delivery of 3D printed
production closer to consumption, it could            goods.
have major implications for everyone
along existing supply chains, including the U.S. Postal Service. 3D printing could lead to
more single-item parcels being shipped to consumers over shorter distances, instead of
hundreds of thousands of identical items sent by containerized cargo over vast
distances. It could also lead to reduced fuel consumption and exhaust emissions, as
well as less material waste due to precise manufacturing. Moreover, 3D printing could

U.S. Postal Service Office of Inspector General                                             July 7, 2014
                                                  i
RARC-WP-14-011                                           If It Prints, It Ships: 3D Printing and the Postal Service



make large retailers rethink their need for maintaining expensive and duplicative
warehouses stocked with massive inventories in favor of just-in-time inventory.

The size of the 3D printing industry helps to convey how important it could be to the
American public and the Postal Service. The total 3D printing industry was valued at
around $3 billion in 2013 and is expected to grow to $16.2 billion by 2018. Given its
potential size, 3D printing could start to reshore previously outsourced manufacturing
back to the United States. Someday very soon, 3D printing could be a powerful engine
for job creation and economic growth.

3D printing has already come to dominate rapid prototyping and is fundamentally
altering other industrial activities. However, much of the excitement around 3D printing
is driven by the potential for customized products. 3D printing allows people to actually
design or buy things that previously existed only in their imagination. This wave of mass
customization is converging with an emerging maker movement — innovative artisans,
entrepreneurs, and everyday people who can use 3D printing to bring their digital
creations into the physical world. 3D printing has the power to democratize
manufacturing by giving more people access to production and allowing them to make
unique items. As the list of things that can be printed continues to grow, consumer
interest in 3D printing will gain momentum.

The Postal Service could benefit tremendously by the rise of 3D printing. This is
primarily due to two factors: the Postal Service’s ubiquitous first- and last-mile delivery
network and its strength in handling lightweight goods. The Office of Inspector General
asked Christensen Associates — a renowned economic consulting firm with extensive
knowledge of Postal Service operations — to assess how 3D printing could affect the
Postal Service. By analyzing commercial package data, Christensen Associates
estimated that 3D printing could raise the Postal Service’s annual package revenue by
$485 million as businesses ship increasing numbers of 3D printed goods to consumers.

To capture the potential benefit of 3D printing, the Postal Service must at least maintain
its current delivery network and keep pace with evolving consumer needs. Many 3D
printed products will be manufactured closer to where consumers live but will still need
last-mile delivery. Businesses wishing to put their 3D printed products in the hands of
consumers as quickly and conveniently as possible may need the ubiquitous postal
network. And if people someday print many items directly, they may frequently need 3D
printing supplies such as powders and binding materials delivered. No other
organization covers as much ground as frequently and reliably as the Postal Service.
Moreover, the generally small and lightweight nature of 3D printed items makes them a
perfect fit for delivery by the Postal Service. Private delivery firms already use the Postal
Service for final delivery of many of their own small packages because the Postal
Service’s network allows it to deliver these packages more cost effectively.

The Postal Service could take further actions to ensure that it helps to meet the future
needs of citizens and businesses. For example, the Postal Service could partner with
3D printing companies and even potentially bring some printing onsite at postal
facilities, as well as provide microwarehousing to help ensure rapid shipment of 3D

U.S. Postal Service Office of Inspector General                                                      July 7, 2014
                                                  ii
RARC-WP-14-011                                          If It Prints, It Ships: 3D Printing and the Postal Service



printed goods. The Postal Service could also help protect copyrighted or sensitive digital
design files by providing a trusted online marketplace for transmission of designs, or by
delivering some files physically through carriers. This could bring a level of security,
confidentiality, and privacy that the Internet cannot match. In addition, the Postal
Service could look into how advertisers might use 3D printing to customize offerings and
better connect with consumers. The Postal Service could also use 3D printing to
improve its own internal operations by printing spare parts to repair vehicles and mail
processing equipment more efficiently.

The 3D printing revolution has only just begun. 3D printing has the potential to be
amazingly disruptive, and some people think the changes brought on by it will exceed
even those of the Internet. While the Internet did much to overcome the challenges of
time and distance by making everything local, 3D printing could take things to the next
level by making on-demand products at any location. The question is, who will win from
a 3D printing revolution and who will lose? By embracing this groundbreaking
technology, the Postal Service could put a compelling 21st century twist on its historical
mission to serve citizens and facilitate commerce.




U.S. Postal Service Office of Inspector General                                                     July 7, 2014
                                                  iii
RARC-WP-14-011                                                                      If It Prints, It Ships: 3D Printing and the Postal Service



                                                  Table of Contents
Introduction ..................................................................................................................... 1

What is 3D Printing?........................................................................................................ 2
     What Are People 3D Printing? ................................................................................... 3
     Strengths and Weaknesses of 3D Printing ................................................................ 5

The Precise Future of 3D Printing is Still Uncertain......................................................... 7
     Growth of the 3D Printing Market ............................................................................... 8
     Where Will Consumers Access 3D Printing? ........................................................... 10

3D Printing Could Bring Substantial Benefits and Opportunities for the
Postal Service ............................................................................................................... 11
     Centralized 3D Printing: Businesses Sell Finished 3D Printed
     Goods to Consumers ............................................................................................... 12
     Decentralized 3D Printing: People Print Some Goods at Home
     Instead of Buying Them ........................................................................................... 14

The Postal Service Could Play a Major Role in 3D Printing .......................................... 15
     Consider How 3D Printing Could Affect Current Focus and Core
     Assets ...................................................................................................................... 15
     Establish New Services Targeted at 3D Printing Businesses .................................. 16
     Think about How Advertisers Could Use 3D Printing to Connect
     with Customers ........................................................................................................ 18
     Use 3D Printing to Improve Internal Operations ...................................................... 18

Conclusion .................................................................................................................... 18

                                                     Appendices
Appendix A                3D Printing Case Studies .................................................................... 20

Appendix B                Details on Analysis of Commercial Packages Supply
                          Chain Volumes .................................................................................... 23

Appendix C                Potentially Simultaneous Scenarios for 3D Printing............................. 25

Appendix D                Retail Sectors that Could be Disrupted by In-Home 3D
                          Printing ................................................................................................ 26




U.S. Postal Service Office of Inspector General                                                                                 July 7, 2014
                                                                  iv
RARC-WP-14-011                                                                   If It Prints, It Ships: 3D Printing and the Postal Service



                                                           Table
Table 1                   Comparison Between 3D Printing and Traditional
                          Manufacturing ........................................................................................ 6

                                                           Video
Video 1                   3D Printing Video................................................................................... 2

                                                         Figures
Figure 1                  3D Printed Dental Implant ..................................................................... 3

Figure 2                  Areas of Application for 3D Printing ....................................................... 5

Figure 3                  Cost Comparison Between 3D Printing and Traditional
                          Manufacturing ........................................................................................ 7

Figure 4                  Sales of Personal 3D Printers................................................................ 8

Figure 5                  Postal Facilities as 3D Printing Hubs ................................................... 13

Figure 6                  Young Boy Using Robohand ............................................................... 20

Figure 7                  3D Printed Prosthetic Limbs ................................................................ 20

Figure 8                  3D Printed Eyewear............................................................................. 21

Figure 9                  3D Scans of Abraham Lincoln’s Life Masks ........................................ 22

Figure 10                 New Revenue from Two Potential 3D Printing Scenarios.................... 25

Figure 11                 Retail Sectors Vulnerable to 3D Printing Disruption ............................ 26




U.S. Postal Service Office of Inspector General                                                                              July 7, 2014
                                                                 v
RARC-WP-14-011                                                         If It Prints, It Ships: 3D Printing and the Postal Service




                      If It Prints, It Ships:
               3D Printing and the Postal Service

Introduction
Few of today’s emerging technologies have attracted as much attention as 3D printing.
Many argue that it could change vast swaths of the global manufacturing sector, much
in the way the Internet revolutionized communication. 1 This technology allows people to
create physical objects out of digital designs — often building them one razor-thin layer
at a time — and has the potential to democratize the means of production.
Theoretically, anyone with a 3D printer can make virtually any object they can imagine
and design, subject to some basic limitations. If, as some predict, people 3D print many
of the things they need on their own instead of buying them online or at brick-and-
mortar stores, global supply chains could shatter, longstanding industries could
collapse, and many aspects of life as we know it could change.

Since the 1990s, 3D printing has driven big changes in some industries, unseen by
many consumers. Given the tremendous scale of global manufacturing, even a tiny
disruption could have far-reaching consequences. Because the consumer 3D printing
revolution is still in its early stages, it is not yet clear exactly who will win from this
                                  significant disruption and who will lose. While this
  3D printing could be            technology promises to have profound ramifications for
  the biggest change to           businesses all along the supply chain — including the U.S.
  global manufacturing            Postal Service — some of the fervor is based on unrealistic
  since the invention of          hype. This paper attempts to sift through much of that hype
  assembly lines.                 and get at the technology’s real possibilities and
                                  implications.

Despite the hype and some uncertainty about the exact magnitude of the market, it is
clear that 3D printing will be a substantial force. It has been hailed as the next industrial
revolution and “the biggest single disruptive phenomenon to impact global industry
since assembly lines.” 2 A recent analysis forecasts the 3D printing industry growing to
$16.2 billion by 2018. 3 McKinsey estimates that 3D printing’s total economic impact
could be as large as $550 billion per year by 2025. 4 If 3D printing took over just

1
  Wohlers Associates, Wohlers Report 2013: Additive Manufacturing and 3D Printing State of the Industry, Annual
Worldwide Progress Report, p. 128.
2
  Transport Intelligence, The Implications of 3D Printing for the Global Logistics Industry, August 2012,
http://www.transportintelligence.com/forms/get_whitepaper.php?wpID=76, p. 1.
3
  Canalys, 3D Printing Market to Grow to U.S. $16 Billion in 2018, March 31, 2014,
http://www.canalys.com/newsroom/3d-printing-market-grow-us162-billion-2018. The industry was worth $3 billion in
2013. Please see Wohlers Associates, “Wohlers Report 2014 Uncovers Annual Growth of 34.9% for 3D Printing and
Additive Manufacturing Industry,” news release, May 1, 2014, http://wohlersassociates.com/press63.html.
4
  McKinsey Global Institute, Disruptive Technologies: Advances That Will Transform Life, Business, and the Global
Economy, May 2013, http://www.mckinsey.com/insights/business_technology/disruptive_technologies, pp. 105, 110.


U.S. Postal Service Office of Inspector General                                                                    July 7, 2014
                                                        1
RARC-WP-14-011                                                           If It Prints, It Ships: 3D Printing and the Postal Service



2 percent of the $10.5 trillion global manufacturing industry, it would be a $210 billion
annual industry. 5 Moreover, a sweeping 3D printing revolution could radically change
how some industries function, potentially transforming the notion of warehousing,
removing some of the need for long-haul shipments, and bringing more manufacturing
jobs back to the United States. In such a world, consumers might come to demand the
customization enabled by 3D printing that they cannot get from today’s mass production
techniques. By helping this emerging class of manufacturers to thrive, the Postal
Service could enhance the economic potential of this technology.

In addition, the rise of a vibrant, nationwide “maker” movement of people experimenting
with 3D printing reflects the strong interest small-scale entrepreneurs and artisans have
in this technology. Individuals are already using 3D printing for all sorts of everyday
items like jewelry and pencil holders, while industrial printers are producing things like
car parts, clothing, and musical instruments. On a larger scale, 3D printing is fueling
                             major advances in medicine and industrial engineering.
    Every 3D printed
    item ordered could     Imagine a world where customers can easily modify countless
    be another package     products to their exact specifications, and order these unique
    that needs home        items via the Internet for home delivery. Every product
    delivery.              ordered could be another
                           product that needs
shipping, which could lead to big increases in             Video 1: 3D Printing Video
package deliveries for the Postal Service.
However, the widespread use of 3D printers in
American households could divert some of the
lightweight packages now handled by the Postal
Service. Fortunately, if people print many items at
home, they would need a constant supply of
printing materials, many of which would need
delivery.
                                                                        Source: PBS Off Book, via YouTube
                                                                        http://youtu.be/X5AZzOw7FwA.
In addition to examining the facts, trends, and
implications of 3D printing for the Postal Service, this paper also proposes several
potential strategies the Postal Service could follow to best position itself for the future. 6

What is 3D Printing?
At a very basic level, 3D printing is the production of physical objects from virtual
representations — like printing a coffee mug from a digital design of a mug. Although
3D printing sounds like something straight out of a science fiction novel, the technology
has existed in various forms for decades. 7 People used most early 3D printers for

5
  “3D Printing Industry Predictions from Terry Wohlers,” 3D Innovations, http://www.3d-innovations.com/blog/3d-
printing-industry-predictions-from-terry-wohlers/.
6
  For this project, we hired Laurits R. Christensen Associates, an economic consulting firm with in-depth knowledge of
U.S. Postal Service operations.
7
  Terry Wohlers and Tim Gornet, Wohlers Report 2013: History of Additive Manufacturing, p. 15.


U.S. Postal Service Office of Inspector General                                                                      July 7, 2014
                                                          2
RARC-WP-14-011                                                         If It Prints, It Ships: 3D Printing and the Postal Service



research, scientific purposes, and a few industrial processes. Only recently has 3D
printing emerged as a commercially viable method for producing consumer goods, due
to advancements in technology and materials, as well as more industry acceptance of
3D printing’s value.

There are several different techniques used for 3D printing. The most common uses
materials pushed out of a heated nozzle — similar to a hot glue gun — to build objects
layer by layer. Other techniques use lasers to create solid objects out of liquid resin or
dry powder that is selectively melted, or use glue to fuse together sheets of plastic or
paper that are cut to specific shapes. Regardless of the technique, 3D printing is
categorized as a type of “additive manufacturing,” meaning that it adds materials
together to create a new object. This is the
opposite of subtractive manufacturing,            Figure 1: 3D Printed Dental Implant
where material is cut away from solid
objects to create a final product.

The digital images that turn into 3D printed
objects come from a few different sources.
Computer-aided design (CAD) programs
can create virtual representations of
physical objects or items that are purely
imaginary. Users can also access digital
files from various websites with pre-
existing designs, and then use those files
to print the objects directly or modify them
before printing. In addition, 3D scanners
capture physical objects and convert them
into digital files that can then be used by a
3D printer to reproduce the physical
object. There are even apps that can turn                   Source: 3D Systems.
a smartphone or tablet into a 3D scanner. 8

What Are People 3D Printing?
Most people are familiar with some of the knick-knacks and unusual items 3D printers
are cranking out right now. Countless news articles have covered 3D printed
smartphone cases, key chains, custom chess pieces with your face on them, and other
such products. The news media has paid less attention to the numerous practical uses
for 3D printing. For example, Align Technology uses 3D printing to create each one of
its popular Invisalign custom-fit, transparent braces. 9 Since 1997, the company has
manufactured nearly 150 million aligners. 10 3D printing can also create custom-made

8
  For examples of 3D scanning technology, please see http://www.3ders.org/3d-scanning.html.
9
  Martha Mendoza, “3-D Printing Goes From Sci-Fi Fantasy to Reality,” Associated Press, June 2, 2013,
http://bigstory.ap.org/article/3-d-printing-goes-sci-fi-fantasy-reality, and “Treatment Process,” Invisalign,
http://www.invisalign.com/how-invisalign-works/treatment-process.
10
   Align Technology, Corporate Fact Sheet: Q1 2014,
http://www.aligntech.com/documents/Align%20Technology%20Corp%20Fact%20Sheet%202014%20Q1_F.pdf.


U.S. Postal Service Office of Inspector General                                                                    July 7, 2014
                                                        3
RARC-WP-14-011                                                           If It Prints, It Ships: 3D Printing and the Postal Service



hearing aids, prosthetic limbs, and other crucial medical devices. Given how quickly 3D
printing has changed some industries already, other industries could change rapidly.

Rapid prototyping is the current primary driver of 3D printing. It allows for comparatively
quick and simple production of first-of-its-kind goods and gives engineers a greater
ability to make swift changes in prototype design.
Companies can even crowdsource consumer                    Rapid prototyping is the
preferences and product improvements through 3D            most common use of 3D
printing by releasing designs for several different        printing today because it
versions of a product and collecting feedback on           enables quicker, cheaper,
                                  11                       and more adaptable designs.
which version is most appealing.

The aerospace and automotive industries also have shown that 3D printing can drive
new efficiencies. F-18 fighter jets, which have been in service for more than two
decades, have about 90 parts per plane made with 3D printing. 12 Airbus is already
saving millions of dollars per year by replacing parts on each plane with 3D printed
components. The minor drop in weight per aircraft — as little as 2.5 kilograms —
multiplied across tens of thousands of flights results in big savings. 13 In addition, Kelly
Manufacturing Co. is 3D printing components for critical aircraft flight instruments. With
3D printing, the turnaround time on these low-volume parts has improved and the cost-
per-part has decreased. 14 In the automotive industry, BMW is using 3D printing to build
light, ergonomic tools for workers on their assembly lines. 3D printing can create parts
that are mostly hollow, which makes their continued use over an entire workday far less
strenuous for the assembly line workers. 15

                                   In addition to industrial and commercial uses of 3D
     3D printing is already        printing, there is also an active community of 3D
     fundamentally changing the    printing hobbyists. Beginning in 2009 or so, the
     aerospace, medical, dental,   expiration of key patents, combined with significant
     automotive, entertainment,
                                   decreases in costs of critical components, enabled a
     and other industries.
                                   grassroots, open-source 3D printing community, which
                                   makes its designs and knowledge base freely
available online. 16 Objects produced by hobbyists may be educational, artistic, or fun.
Some are even functional, such as footwear, chip clips, and bottle openers. A
flourishing maker movement in the United States has fueled interest in 3D printing as a
means for innovative and more accessible design and production.


11
   Daniel Cohen, Matthew Sargeant, and Ken Somers, “3-D Printing Takes Shape,” McKinsey Quarterly, January
2014, http://www.mckinsey.com/insights/manufacturing/3-d_printing_takes_shape.
12
   “3D Printing Scales Up,” The Economist, September 5, 2013, http://www.economist.com/news/technology-
quarterly/21584447-digital-manufacturing-there-lot-hype-around-3d-printing-it-fast.
13
   Curtis Carson, Head of Systems Integration, Centre of Competence Manufacturing Engineering at Airbus, quoted
in “Airbus Envisions a 3D Printed Future,” On 3D Printing, April 4, 2014, http://on3dprinting.com/2014/04/04/airbus-
describes-3d-printed-future/.
14
   Stratasys, Kelly Manufacturing Case Study, http://www.stratasys.com/resources/case-studies/aerospace/kelly-
manufacturing.
15
   Stratasys, BMW Case Study, http://www.stratasys.com/resources/case-studies/automotive/bmw.
16
   McKinsey Global Institute, Disruptive Technologies, p. 108.


U.S. Postal Service Office of Inspector General                                                                      July 7, 2014
                                                          4
RARC-WP-14-011                                                               If It Prints, It Ships: 3D Printing and the Postal Service



Figure 2 depicts four major uses           Figure 2: Areas of Application for 3D Printing
of 3D printing and rough
adoption projections for each.               A REVOLUTION IN WAVES
Rapid prototyping led the first              3D printing is most commonly used for industrial
wave because of the flexible                 purposes. The printing of finished consumer
design capabilities of 3D                    products and in-home printing lags behind.
printing. The second wave                50%

involves improvements to
traditional manufacturing                                                                              Finished
                                                                                                       products
techniques through targeted use




                                                  3D Printing Adoption
                                                             Rapid            Molds &
                                                             Prototyping
of 3D printing. These first two                                               Tooling
                                         25%
are generally industrial                                                                         In-home
applications, and will likely have                                                               printing

limited impact on the Postal
Service. The third key use is the
3D printing of finished goods or          0%
parts directly for consumer use.            1980     1990       2000      2010       2020      2030         2040
In-home 3D printing is the most      Source: Rough projections by Christopher Barnatt, ExplainingTheFuture.com.
recent trend and the one whose
path is most uncertain. 17 These final two applications are likely to have a strong impact
on the Postal Service, as discussed later in this paper. For more examples of how
people are using 3D printing, please see Appendix A.

Strengths and Weaknesses of 3D Printing
3D printing has numerous important advantages over traditional manufacturing
techniques. It is ideal for creating objects that are relatively small and customized to
individual consumers or applications. 18 3D printing allows for short, specialized
production runs that do not require extensive reconfiguration of machines as in
traditional manufacturing. The process is highly automated, in theory allowing people
with little to no machine shop experience to produce highly specialized physical objects.
3D printing is also well suited to items with expensive materials because it can minimize
waste and produce items with up to 75 percent less material. 19 Finally, 3D printing can
produce objects with more complex designs than would be practical or even possible
with traditional manufacturing techniques.

However, 3D printing currently has some important limitations. For example, the range
of materials available for printing is limited, which reduces the number of things that can
be printed. The 3D printing process itself can lead to weak spots in finished products,
given its layer-by-layer construction and potential flaws in some 3D designs. In addition,

17
   Christopher Barnatt, “3D Printing: The Business Opportunities,” 3D Printer, October 7, 2013,
http://www.3dprinter.net/3d-printing-the-business-opportunities.
18
   Zack Schildhorn, “The Big Picture on 3D Printing: A VC Perspective” (presentation at Inside 3D Printing
Conference + Expo, New York, Thursday, April 3, 2014).
19
   For examples, please see http://www.naefrontiers.org/File.aspx?id=39131,
http://www.usrepresented.com/2013/12/19/additive-manufacturing/, and http://www.3ders.org/articles/20131024-3d-
printing-can-cut-material-consumption-co2-emissions.html.


U.S. Postal Service Office of Inspector General                                                                          July 7, 2014
                                                                         5
RARC-WP-14-011                                                                        If It Prints, It Ships: 3D Printing and the Postal Service



the simpler 3D printers are limited to using only single materials for each object printed.
Importantly, 3D printing takes a long time for larger objects as modest increases in size
can require dramatically longer times to print. Moreover, the technology is still evolving
and some existing printers are prone to breakdown and minor errors in production,
resulting in objects that are useless. 20 It also can take precisely controlled
environmental conditions to get a high-quality print due to the sensitivity to temperature,
wind, and humidity in melting processes. Finally, the characteristics that make a
material a good candidate for 3D printing, such as a low melting point, also can make
the resulting parts unsuitable for durable use without significant post-production
processing. For example, a dashboard GPS mount printed with plastic can become soft
or melt down entirely in a vehicle left in the hot sun. Table 1 highlights some of the key
differences between 3D printing and traditional manufacturing.

              Table 1: Comparison Between 3D Printing and Traditional Manufacturing
            3D PRINTING VS TRADITIONAL MANUFACTURING
            Traditional manufacturing processes often require expensive, custom-configured equipment
            designed to mass produce products. 3D printers, conversely, make unique items from digital
            designs, often building them layer by razor-thin layer. Here is how the processes stack up.
                                             3D Printing                              Traditional Manufacturing
                            Once you have the design file, there is           It takes a great deal of time and resources to
                            little upfront time required to begin printing,   set up machines for production. However,
                            though each item can take a long time to          once fabrication begins, each item can be
              Speed         print. This makes it ideal for prototyping,       manufactured quickly. This makes it ideal for
                            small production runs, or customized              mass production of identical items.
                            products.
                            There are low upfront costs, but often            There are high upfront costs, but relatively low
                            relatively high per-unit costs. There is          per-unit costs. It also requires skilled workers
               Cost
                            minimal need for skilled labor (other than        to configure and operate machines.
                            design).
                            Complex or hollow items are no more               Retooling costs make it impractical to
                            difficult to print than simple items. Also,       customize or experiment with new product
                            designs can be adjusted or customized             designs. Also, it is often impossible to make
                            easily, allowing manufacturers to respond         certain designs in a single piece, including
                            quickly to customer preferences. However,         hollow or highly intricate items. However,
            Flexibility
                            the relatively young technology still has a       techniques already exist to produce a virtually
                            limited array of materials that can be used,      limitless array of items using a broad swath of
                            and it is not well suited for making some         materials.
                            types of products.

           Source: U.S. Postal Service Office of Inspector General (USPS OIG) analysis.


Because of these advantages and limitations, 3D printing is generally best suited for
relatively small production runs. Once the number of units produced is large enough,
traditional manufacturing methods are usually more cost-efficient. Figure 3 shows
conceptual cost curves for traditional manufacturing and 3D printing. The area to the left
of the intersection of the lines represents production runs that are ideal for 3D printing

20
     For examples of failed 3D prints, please see http://epic3dprintingfail.tumblr.com/.


U.S. Postal Service Office of Inspector General                                                                                   July 7, 2014
                                                                    6
RARC-WP-14-011                                                                                 If It Prints, It Ships: 3D Printing and the Postal Service



because it would cost less to produce that quantity of items with 3D printing than
traditional manufacturing. It is important to note that the cost curve for 3D printing will
move downward as technological advancements make the process easier, faster, and
cheaper. As the costs decrease, the area to the left of the intersection grows larger —
representing an increased number of goods well suited for 3D printing. For non-identical
items, 3D printing is already likely the most efficient process in many cases.

        Figure 3: Cost Comparison Between 3D Printing and Traditional Manufacturing

                     THE ECONOMICS OF 3D PRINTING VS MASS
                     MANUFACTURING ARE CHANGING
                     3D printing of identical finished products only makes economic sense
                     if you’re printing a limited number. For larger quantities, traditional
                     manufacturing currently costs less per unit. But as 3D printing gets
                     faster and cheaper (shown with the dotted lines below), the unit
                     threshold where it makes economic sense to 3D print items will
                     increase. As that happens, a cascade of industries may switch to 3D
                     printing to save on manufacturing costs.



                                                                                      Traditional Manufacturing
                       RELATIVE COSTS




                                               3D Printing
                                         (costs will fall over time)




                                        One         Tens               Hundreds         Thousands               Millions

                                                                       NUMBER OF UNITS
                        Source: Zack Schildhorn, Lux Capital. Modified by the USPS OIG. These conceptual cost
                        curves are purely illustrative.



The Precise Future of 3D Printing is Still Uncertain
Given the disruptive potential of 3D printing and the pace at which the market is
changing, nobody knows exactly how 3D printing will evolve. Some experts say the
technology will completely revolutionize the way we create and consume nearly
everything, and that 3D printers will one day be as common in households as
microwave ovens. Others say 3D printing will just gradually change how a number of
key industries work, remain a niche technology used mostly by dedicated hobbyists, or
continue as a tool best meant for rapid prototyping and other industrial uses.
Regardless of precisely how it evolves, 3D printing is likely to move production closer to

U.S. Postal Service Office of Inspector General                                                                                            July 7, 2014
                                                                                  7
RARC-WP-14-011                                                         If It Prints, It Ships: 3D Printing and the Postal Service



the point of consumption and could call into question longstanding tenets of
manufacturing, including the need for centralized factories, rigid supply chains, and
commoditized mass production. 21

Growth of the 3D Printing Market
Like many modern technologies, 3D printing is changing rapidly. Shifts in consumer
preferences, technological advancements, and other factors are drastically altering how
and why businesses and consumers use 3D
printing. The global market for 3D printing,    Figure 4: Sales of Personal 3D Printers
consisting of all products and services, had a
compound annual growth rate of 34.9 percent
                                                 PERSONAL PRINTERS
in 2013 — the highest in 17 years. 22 This
could be solid evidence that the 3D printing     TAKING OFF
revolution has begun. Sales of industrial        Sales of personal 3D printers have surged in
                                                 recent years, with the average machine
printers, generally considered those that cost   selling for $1,124 in 2012 — just a fraction of
more than $5,000, have increased over the        the nearly $80,000 price tag fetched by the
past couple of decades, with an average          average industrial machine.
compound annual growth rate of 31.1 percent
from 1989 to 2012. 23                                                                   35,508

                                                                    Number of personal 3D
In addition, sales of personal or desktop 3D               printers sold
printers — those that cost $5,000 or less —                                       24,265
have skyrocketed in the past few years.
Figure 4 shows the estimated number of
personal or desktop 3D printers sold between
2007 and 2012, when there was a substantial
                                                                            5,978
leap in the number of printers sold — even if
these devices represent only a small portion                         1,816
                                                        66    355
of the overall 3D printing market. The size of
the personal 3D printer market is difficult to        2007 2008 2009 2010 2011 2012
measure because such estimates generally           Source: Wohlers Report 2013.
do not count 3D printing hobbyists who
sometimes build their own machines. As a result, the actual number of personal 3D
printers inside homes and small businesses is likely much higher. There also are recent
examples of personal 3D printers that attract a great deal of attention from the public.
One Kickstarter campaign for a consumer 3D printer sold more than 9,000 units in 10
days, and raised more than $2 million in just 3 days. 24 The campaign had an original


21
   Institute for the Future, The Future of Open Fabrication, http://www.iftf.org/uploads/media/SR-
1390_FutureOfOpenFab.FINAL_sm.pdf, p. 8.
22
   Wohlers Associates, “Wohlers Report 2014 Uncovers Annual Growth of 34.9% for 3D Printing and Additive
Manufacturing Industry,” http://wohlersassociates.com/press63.html.
23
   Wohlers Associates, Wohlers Report 2013: Additive Manufacturing and 3D Printing State of the Industry, Annual
Worldwide Progress Report, pp. 129-130.
24
   Kickstarter is a website that allows people to solicit small dollar investors to fund a project,
https://www.kickstarter.com/projects/m3d/the-micro-the-first-truly-consumer-3d-printer.


U.S. Postal Service Office of Inspector General                                                                    July 7, 2014
                                                        8
RARC-WP-14-011                                                           If It Prints, It Ships: 3D Printing and the Postal Service



crowdfunding goal of raising just $50,000 in 30 days — a goal that it met in just 11
minutes. 25

Ultimately, the number of applications of 3D printing, and not merely the technology
itself, will likely drive its popularity in the consumer market. In other words, as the
universe of “things to print” gets larger, consumer demand is likely to grow. Having
robust and accessible sources of virtual objects will therefore boost the overall growth of
3D printing. The largest current library of virtual objects is MakerBot’s Thingiverse.com,
which contains more than 100,000 design uploads from users. 26 Also, the existing trend
toward mass customization will likely grow and intensify. In fact, this desire for
customized goods may be the most significant factor in the growth of 3D printing. 27

                                    Regardless, the cost of printers and the range of
     The more objects people        available printing materials will always be important
     want to print, the more they   factors. Overall, 3D printers are getting cheaper. Just
     will want access to 3D         a few years ago, they were enormously expensive and
     printing. This will be the     outside many people’s price range. Today, low-end,
     primary market driver,         hobbyist machines now can cost less than $300. In
     rather than advancements
                                    addition, printing materials are no longer limited to just
     in technology alone.
                                    basic plastics or metals. There are now filaments
                                    made from nylon that can be used to create flexible
parts, as well as filaments partially made from wood that can be drilled or cut similar to
natural wood. As printers and printing materials become more capable, useful, and
available, the public’s uptake of 3D printing is likely to increase. Improvements in the
software used to design virtual objects also will help fuel the growth of 3D printing.

Intellectual Property and Liability Issues
Lingering questions about intellectual property, patent protection, and liability also will
shape this technology’s future. In a world with ubiquitous 3D printers or 3D printing
services, discovering and combating the infringement of intellectual property rights and
patents is likely to become increasingly difficult, if not impossible. Once the public has
access to a digital design file, widespread reproduction of the object becomes a real
possibility — whether or not the creator or rights holder for the design wants it. In many
ways, this is similar to what happened to digital music once files appeared on online
file-sharing sites. In addition, as 3D printing becomes more popular there may be
increasing concerns about liability issues. For example, if a 3D printed part fails, who is
the responsible party — the person who printed the object, the creator of the digital
design, the manufacturer of the printer itself, the raw materials supplier, or someone
else entirely? These issues will likely play out in the courts over the coming years and
decades.

25
   Salvador Rodriguez, “Micro 3-D printer reaches Kickstarter goal of $50,000 in 11 minutes,” Los Angeles Times,
April 7, 2014, http://www.latimes.com/business/technology/la-fi-tn-micro-3d-printer-kickstarter-50000-11-minutes-
20140407,0,7778172.story#axzz30ZN0CDwc.
26
   “About,” MakerBot Thingiverse, http://www.thingiverse.com/about.
27
   Paul Willis, “New Dimension,” Postal Technology International, March 2013,
http://www.postaltechnologyinternational.com/articles.php?ArticleID=552.


U.S. Postal Service Office of Inspector General                                                                      July 7, 2014
                                                         9
RARC-WP-14-011                                                            If It Prints, It Ships: 3D Printing and the Postal Service



Where Will Consumers Access 3D Printing?
Many big questions hang over the future of 3D printing. Will mass customization replace
a significant share of mass production? And, if so, where will consumers go to access
3D printing? Will they buy the 3D printed products and services they need from
businesses and have them delivered? Will they print what they need at home? Will they
do both? Will they even know what products are being fully or partially 3D printed?
Manufacturers with high-end printers can make products or parts for others on demand,
offering a nearly limitless assortment of customized goods while keeping physical
warehousing needs to an absolute minimum. Because consumers can get their 3D
printing needs fulfilled quickly, cheaply, and easily by such businesses, many
consumers will likely use in-home 3D printers for much more limited purposes.

The advance of “2D” ink printers might help shed some
light on how this could play out. To be clear, there are     Where will consumers get
fundamental differences between 2D and 3D printing,          the 3D printed products
and people’s relationship with two-dimensional               they need — from printers
information is different from their relationship with        inside their homes or from
three-dimensional objects. Nevertheless, the analogy         businesses selling
is useful. Throughout most of their history, 2D printers     finished 3D printed
were large, labor-intensive industrial machines that         goods? Perhaps both at
                                                             the same time, depending
had to be hand-configured for each item they were
                                                             on what they need.
printing. Much like traditional factories today, they were
best at doing large runs of identical items. However,
digital printing advances that began in the 1970s changed things dramatically. Within a
few decades, inexpensive desktop machines that could print high quality, color images
would become ubiquitous. However, those in-home printers did not replace the need for
professionally printed materials. It did not make sense for people to print their
newspapers, magazines, and books at home. Such mass-produced products are still
printed on big industrial machines. Even for smaller-run items like brochures, invitations,
or posters, most people prefer to print them at local copy centers, which have
equipment with the speed and capacity to produce high-quality items more quickly.

These same dynamics may hold true for 3D printing. Some theorize that every home
will have a 3D printer one day, which people will use to make all sorts of items that they
currently buy at retail stores or online. A Michigan Technological University study even
asserts that 3D printers are already cost-effective home appliances. 28 While people may
be able to use their in-home printers for some items, based on this 2D printing analogy,
it is likely that most products will still be manufactured by traditional means or industrial
grade 3D printers. It is also likely that local 3D printing centers, similar to existing copy
centers, could serve as a place where people could both scan items they would like to
recreate or order professional-grade 3D prints of designs they may have purchased
online.

28
  B.T. Wittbrodt, A.G.Glover, J. Laureto, G.C. Anzalone, D. Oppliger, J.L. Irwin, and J.M. Pearce, “Life-Cycle
Economic Analysis of Distributed Manufacturing with Open-Source 3-D Printers,” Mechatronics, 6, No. 23
(September 2013), http://www.sciencedirect.com/science/article/pii/S0957415813001153, pp. 713-726.


U.S. Postal Service Office of Inspector General                                                                       July 7, 2014
                                                         10
RARC-WP-14-011                                                          If It Prints, It Ships: 3D Printing and the Postal Service



3D Printing Could Bring Substantial Benefits and
Opportunities for the Postal Service
A 3D printing revolution might be a huge opportunity for the Postal Service. This is
primarily due to two factors: the Postal Service’s ubiquitous delivery network and its
strength in handling lightweight goods. The Postal Service has an unmatched last-mile
delivery network. Six days per week, it delivers to 153 million addresses across the
United States. In addition, it has more than 211,000 vehicles that drive about 1.2 billion
miles annually. 29 Moreover, it employs nearly 114,000 rural carriers and nearly 198,000
city carriers who not only deliver letters and packages, but also can pick up items to be
shipped. 30 No other organization covers so much territory as frequently and reliably.

                                 The Postal Service also has a natural advantage in
     The Postal Service has
                                 delivering lightweight goods, given its ubiquitous
     the most to gain from 3D
     printing compared to
                                 presence and frequency of delivery. It is often not cost
     other delivery firms.       effective for private delivery firms to make separate stops
                                 to deliver small, relatively inexpensive packages —
                                 particularly in rural areas. However, the Postal Service is
already visiting these locations every day. As such, other delivery firms often use the
Postal Service for last-mile delivery. 31 In fact, nearly two thirds of lightweight,
commercial packages are delivered to their final destination by the Postal Service. 32
This is directly relevant to 3D printing, as the vast majority of 3D printed consumer
goods are relatively lightweight. 33 There are several reasons for this. First, most 3D
printing materials themselves are lightweight. Second, many 3D printers have relatively
small print areas. Third, designers intentionally create many 3D printed objects to be
lightweight with holes or other cutout areas that
reduce excess materials and therefore weight.                  Most 3D printed items are
Finally, because it takes significantly more time to           lightweight, and the Postal
produce larger and heavier goods, these bulkier                Service delivers nearly
                                                               two-thirds of all lightweight
items are far more often produced by conventional
                                                               commercial packages.
methods.

We asked Christensen Associates to assess what impact a 3D printing revolution could
have on the Postal Service. To do so, Christensen Associates analyzed commercial
package data from fiscal year 2013 (October 1, 2012 to September 30, 2013), focusing
on industries and parts of the supply chain that would likely be affected by increased

29
   U.S. Postal Service, “About Us,” http://about.usps.com/who-we-are/postal-facts/size-scope.htm.
30
   U.S. Postal Service, “Postal Service Active Employee Statistical Summary (HAT Report), Pay Period 12, FY 2014,”
accessed via U.S. Postal Regulatory Commission website at http://www.prc.gov.
31
   For example, Fred Smith, Chairman and CEO of FedEx, cited the Postal Service’s density as a primary reason
behind the development of the company’s SmartPost product, which uses the Postal Service for last-mile delivery of
packages. Please see cepobserver.com/2010/09/fedex-earnings-implications-for-the-usps.
32
   Christensen Associates analysis of commercial package data.
33
   For our analysis, we assumed that most of the goods that would benefit from 3D printing as opposed to traditional
manufacturing would weigh 1.5 pounds or less. This incorporates the entire weight of the package, including the box
and any packing materials. For comparison, many shoes sold on Amazon and other websites have a total estimated
package weight of about 2 to 2.5 pounds.


U.S. Postal Service Office of Inspector General                                                                     July 7, 2014
                                                        11
RARC-WP-14-011                                                        If It Prints, It Ships: 3D Printing and the Postal Service



levels of 3D printing. For example, 3D printing is likely to affect the market for toys,
electronics, jewelry, and auto parts. Christensen Associates conducted a scenario
analysis to account for differences in the future development of 3D printing. In this
paper, we focus on two scenarios that are directly relevant to the Postal Service, as
described below. Please see Appendices B and C for more details on the methodology
and results of Christensen Associates’ analysis.

Centralized 3D Printing: Businesses Sell Finished 3D Printed Goods
to Consumers
Given that 3D printing dramatically lowers the barriers to entry for manufacturing, small
3D printing businesses are already cropping up. They primarily use industrial-grade
printers, selling high quality customized goods and/or printing services over the Internet.
As this burgeoning sector grows, these businesses could increasingly compete on
speed. This could lead them to place their printing facilities near shipping nodes, which
would allow them to get their products into the delivery stream more quickly. This
creates a potential win-win opportunity for these businesses and the Postal Service.

Christensen Associates examined this likely future scenario and projected that it could
lead to an 18 percent increase in commercial package volume for the Postal Service.
That translates into around $485 million in additional annual revenue, based on 2013
figures. This assumes a medium level of 3D printing disruption. The real-life outcome, of
course, will be greatly influenced by technological advancements, changes in consumer
preferences, and other factors that are outside the scope of this paper. It also is
important to note that the Postal Service’s benefit from 3D printing will be tied to the
strength of its network. Weakening of the network — through reductions in important
features like service frequency, number of delivery points, tracking and tracing services,
                                or pick-up options — could result in the Postal Service
   Emerging 3D printing         forgoing new opportunities in 3D printing.
     businesses could use
     the ubiquitous first- and   There is evidence that this scenario is already becoming
     last-mile postal network    a reality. For example, innovative new retailers like
     to connect with their       Shapeways give consumers a way to buy designs and
     customers.                  3D printing services a la carte. Consumers can pick an
                                 existing design on Shapeways.com, as well as a
preferred printing material, and pay for that design to be printed and mailed to them.
Consumers can also submit their own digital files for others to print, or hire an expert to
create a digital design based on the consumer’s imagination. 34 At locations such as the
3D Heights print store in New York City, people can have their faces scanned and
printed onto a wide variety of figurines, and have them shipped directly to their home. 35

The Postal Service could market itself as a logistics partner for 3D printing businesses
located near Postal facilities, giving them a streamlined way to ship products quickly. In

34
   Consumers who submit digital designs to Shapeways can also choose to keep those designs private and therefore
unavailable for purchase to other consumers.
35
   For more information, please see http://www.3dheights.com/.


U.S. Postal Service Office of Inspector General                                                                   July 7, 2014
                                                      12
RARC-WP-14-011                                                                                If It Prints, It Ships: 3D Printing and the Postal Service



addition, the Postal Service has more than 60 million square feet of excess space
nationwide, much of which is in mail processing centers. 36 These are industrial facilities
that could accommodate the electrical power and ventilation needs of large 3D printers.
The Postal Service could lease some of this space directly to 3D printing businesses,
making it even easier for them to ship products quickly.


                                                        Figure 5: Postal Facilities as 3D Printing Hubs

                    USPS FACILITIES COULD
                    SERVE AS 3D PRINTING HUBS
                    In the future, many small and regional 3D printing manufacturers
                    may be looking to speed up and streamline product shipments.
                    The Postal Service could encourage these businesses to locate
                    near or even inside postal processing plants, which often have
                    excess industrial space. Those companies would better serve
                    customers by being able to enter products seamlessly into the
                    mail. It also could boost package revenue for the Postal Service
                    by $323 to $646 million per year.



                                                                                        Growth in commercial
                     3D printing disruption level




                                                      Low                  $323           package revenue




                                                    Medium                             $485




                                                      High                                              $646

                                                                   Revenue growth in millions
                                                                    (based on 2013 figures)
                   Note: Above revenue increases do not take into account potential leasing income.
                   Source: USPS OIG graphic based on data from Christensen Associates.




36                                                                         st
  U.S. Postal Service Office of Inspector General, 21 Century Post Office: Opportunities to Share Excess
Resources, Dec. 5, 2011, http://www.uspsoig.gov/blog/21st-century-post-office-opportunities-share-excess-
resources.


U.S. Postal Service Office of Inspector General                                                                                           July 7, 2014
                                                                                13
RARC-WP-14-011                                                         If It Prints, It Ships: 3D Printing and the Postal Service



In addition, major national companies are starting to offer 3D
printing services to consumers and to small businesses              Major national
looking to get into the 3D printing market themselves. For          companies and
example, Amazon recently began a pilot program in which it          small businesses
gives consumers the chance to purchase a variety of 3D              are already getting
printed products from independent designers looking to tap          into 3D printing.
into Amazon’s huge customer base. 37 UPS also is
conducting a pilot 3D printing service in several major cities across the United States. It
aims its 3D printing services primarily at small businesses and entrepreneurs who need
to outsource printing of their digital designs. UPS also provides digital design experts for
hire on an hourly basis. 38

Decentralized 3D Printing: People Print Some Goods at Home Instead
of Buying Them
Much of the buzz around 3D printing is based on the idea that people could one day use
affordable, high quality in-home printers to make many, if not most, of the items they
now purchase from retailers. This is highly unlikely. If in-home 3D printers become
ubiquitous, they would probably only be used for relatively few items. Nevertheless, this
improbable scenario would be massively disruptive to the retail supply chain. It could
lead to big cuts in brick-and-mortar and e-commerce sales, and a corresponding drop in
the number of commercial packages shipped. (Please see Appendix D for a list of retail
sectors that could face disruption.)

                                 Even though a vast range of products under this
    While massive amounts        scenario would be printed at home instead of being
    of in-home 3D printing       shipped to consumers, every household doing frequent
    could reduce USPS            printing would need a variety of 3D printing materials so
    deliveries of finished       that they could continue to make the things they need.
    products, the boost in       Analysis from Christensen Associates shows that the
    shipments of printing
                                 increase in shipments of printing materials could actually
    materials could more
    than make up for it.
                                 more than make up for the decline in deliveries of
                                 finished products. In part, this is because shipments of
                                 printing materials would replace brick-and-mortar
purchases that were not shipped through the Postal Service to begin with. At a low level
of disruption, this scenario could result in an increase of about 12 percent in the Postal
Service’s commercial package volume. A high level of disruption could mean a 28
percent increase. 39 Based on 2013 figures, that translates into a $357 million to $1.1
billion annual increase in revenue. However, this scenario is not only highly unlikely, but
also highly uncertain. Many hard-to-predict factors could lead to very different outcomes

37
   Catherine Clifford, “Amazon Launches Pilot Program Selling 3-D Printed Products,” Entrepreneur, March 6, 2014,
http://www.entrepreneur.com/article/232013.
38
   Rakesh Sharma, “UPS May Have Hit Pay Dirt With 3D Printing,” Forbes, August 19, 2013,
http://www.forbes.com/sites/rakeshsharma/2013/08/19/ups-may-have-hit-pay-dirt-with-3d-printing/.
39
   This analysis assumes that the Postal Service would deliver 50 percent of materials shipments. However, as the
retail market for 3D printing materials develops, some consumers may buy them from brick-and-mortar stores.


U.S. Postal Service Office of Inspector General                                                                    July 7, 2014
                                                       14
RARC-WP-14-011                                              If It Prints, It Ships: 3D Printing and the Postal Service



for Postal Service package volume, including the development of a 3D printing material
retail network that is largely nonexistent today.

It is important to note that these scenarios are not mutually exclusive, and could happen
at the same time. For example, businesses could begin to sell more 3D printed goods to
consumers at the same time as people start to use in-home printers to create some
items. If this happened, then the effects on the Postal Service in terms of new revenue
and commercial package volume would likely be some combination of the effects of
both scenarios.

The Postal Service Could Play a Major Role in 3D
Printing
While the Postal Service can significantly benefit from the growth of 3D printing merely
by maintaining its existing network and keeping pace with delivery industry changes, it
could take concrete actions to enhance or expand its role so that it can benefit even
more from 3D printing. It could position itself to become a major player in the emerging
3D printing and delivery market. To get the most out of a 3D printing revolution, the
Postal Service will need to match its strategic positioning to the expansion of 3D
printing. This would not only be good for the Postal Service, but also good for the
economy.
It is no secret that globalization has decimated American
manufacturing jobs. Factories in a broad swath of industries     The Postal Service
have moved abroad, where labor is cheaper. 3D printing has       could help usher in
the potential to change that trend, bringing a new wave of       a new, brighter era
manufacturing jobs back to the United States. As small and       in American
                                                                 manufacturing.
regional 3D printing businesses proliferate, the full economic
benefit of those sales will stay in the United States. If the
Postal Service can help these companies compete and thrive, it could help usher in a
brighter era in American manufacturing.

Below, we propose a few potential strategies and ideas for the Postal Service to
consider.
Consider How 3D Printing Could Affect Current Focus and Core
Assets
The Postal Service’s ubiquitous physical network and unrivaled first- and last-mile
delivery capabilities give it a tremendous advantage in serving the 3D printing needs of
consumers and businesses. Postal management can take action to ensure that the
Postal Service does not lose its current position of strength, and to utilize 3D printing to
better optimize future changes. For example:

          As the Postal Service continues to consolidate its processing network, it should
           guard against any changes that would lessen the value of its first- and last-mile
           package delivery network. Any weakening of its network could minimize the


U.S. Postal Service Office of Inspector General                                                         July 7, 2014
                                                  15
RARC-WP-14-011                                                             If It Prints, It Ships: 3D Printing and the Postal Service



              Postal Service’s ability to get the most out of the growth and new developments
              in 3D printing.

             According to some observers, 3D printing is creating a new type of logistics
              company that focuses on delivery, returns, recycling, and other parts of the
              emerging 3D printing market. In fact, the movement, storage, and home delivery
              of 3D printing materials alone could become a major new sector of the logistics
              industry. 40 The Postal Service has many existing assets that could help it play an
              expanded role in helping products move through the supply chain. 41 Any actions
              to enhance its logistics capabilities should consider the potential growth of 3D
              printing.

                                                                                The Postal Service will
                 3D Printing’s Impact on Logistics
                                                                            someday need to replace its
     3D printing could have a big impact on the way                         aging fleet of delivery vehicles.
     products move through the supply chain,                                The rapid growth of e-
     presenting opportunities for the Postal Service.                       commerce has already led the
                                                                            Postal Service to try to adapt
                                                                            existing vehicles to
     •       Some manufacturing will move back to the
                                                                            accommodate large numbers of
             United States.
                                                                            packages. A 3D printing
                                                                            revolution could greatly
     •       Retail storefronts could convert to “shop
                                                                            exacerbate the need for
             windows” for manufacturers, keeping only a
                                                                            redesigned, more parcel-ready
             model in stock and custom printing each item
                                                                            vehicles.
             as ordered.
                                                                                 The Postal Service could
     •       Warehouses will shift from physical to digital,                examine the feasibility of renting
             as spare parts are scanned into vast libraries                 excess space in postal facilities,
             for future on-demand printing.                                 such as mail processing
                                                                            centers, to 3D printing
     Source: Transport Intelligence, The Implications of 3D Printing for
     the Global Logistics Industry.                                         businesses looking for places to
                                                                            conduct printing and store
                                                                            printing materials.

Establish New Services Targeted at 3D Printing Businesses
The Postal Service could create a platform for 3D printing that uses its national retail
network and last-mile capabilities. By doing so, the Postal Service would create a digital
“middle mile” where, at a basic level, designs are sent to the platform and then 3D
printed and shipped via same-day or next-day delivery. This could be considered a
“hybrid parcel” product, similar to the concept of hybrid mail where digital
40
    Transport Intelligence, p. 4.
41
    For more information on how the Postal Service could play an enhanced role in the logistics market, please see
U.S. Postal Service Office of Inspector General, The Global Logistics Revolution: A Pivotal Moment for the Postal
Service, RARC-WP-13-010, June 3, 2013, https://www.uspsoig.gov/sites/default/files/document-library-
files/2013/rarc-wp-13-010.pdf.


U.S. Postal Service Office of Inspector General                                                                        July 7, 2014
                                                             16
RARC-WP-14-011                                                           If It Prints, It Ships: 3D Printing and the Postal Service



communications are converted into physical letters. The platform could also include
some type of intermediary role for the Postal Service to facilitate the exchange or use of
digital designs in a way that protects intellectual property rights. For example, the
platform might host “official” designs from toy manufacturers or other companies that
are looking to connect with customers in a highly trusted forum. 42

At minimum, a Postal Service platform for 3D printing could cater to the needs of
businesses that want to set up their 3D printing centers near postal facilities, so that the
finished goods can drop right into the delivery network. 3D printing will cut the cost of
entry for many new businesses looking to get into key markets, as it makes design
easier, reduces some production costs, and opens the door to serving emerging niche
markets. 43 The Postal Service’s nationwide network could be indispensable for the
growth of these businesses. The
Postal Service could even play a                   La Poste Embraces 3D Printing
larger role by enhancing its logistics
services and helping these                 In November 2013, France’s La Poste began
businesses prepare the new 3D              a partnership with 3D printing company
printed goods for shipment.                Sculpteo to install 3D printers in three Paris-
                                           area post offices, as well as to offer an online
A platform for 3D printing might be        marketplace where customers can order 3D
most feasible if established through       printed products. Customers can submit their
partnerships with private sector           own designs or pick and customize from a
companies focused on 3D printing, as       catalog with about 40,000 designs. La Poste
France’s La Poste has done. Partners either delivers the products or holds them at
would be more experienced and              the post office.
better equipped to conduct 3D
printing or other innovative services,     La Poste benefits from increased foot traffic
like 3D scanning. Through                  and package shipments, and awareness of its
partnerships, the Postal Service could     embrace of new technologies. Sculpteo is
tap into this expertise and knowledge      able to better connect with more customers
without having to develop it on its        by associating itself with the well-known
own. Partners also could help resolve      brand of La Poste, which has a large physical
potential liability issues related to      footprint.
intellectual property or safety
                                           Source: Interview with Sculpteo representative.
concerns. Moreover, working with
private sector companies already
engaged in 3D printing could help the Postal Service to stay current with emerging
developments in technology and materials. 44



42
   The Postal Service would need to assess what services might be permissible under the 2006 Postal Accountability
and Enhancement Act (PAEA), which generally prohibits the Postal Service from offering new nonpostal services. For
more information, please see 39 U.S.C § 404(e)(2).
43
   Daniel Cohen, et. al., “3-D Printing Takes Shape,” McKinsey Quarterly.
44
   For information on public-private partnerships, please see U.S. Postal Service Office of Inspector General, Public-
Private Partnerships: Best Practices and Opportunities for the Postal Service, RARC-WP-13-011, June 24, 2013,
http://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-wp-13-011.pdf.


U.S. Postal Service Office of Inspector General                                                                      July 7, 2014
                                                         17
RARC-WP-14-011                                                          If It Prints, It Ships: 3D Printing and the Postal Service



Think about How Advertisers Could Use 3D Printing to Connect with
Customers
The Postal Service could look into how advertisers might use 3D printing to better
connect with their customers through the mail. Expanding knowledge of consumer
characteristics and preferences is enabling more targeted, cost-effective advertising
campaigns. 45 These data could lead to even more customized advertisements using 3D
printing. Marketers could send customized product samples or other items tied directly
to the individual’s interests and preferences. Eventually marketers could even target
                            people who own in-home 3D printers with advertisements that
  Imagination may be        contain scannable codes. If the consumer wants the product in
  the only boundary         the ad, they simply scan the code to download the digital
  for advertisers’ use
                            design to their home 3D printer, which builds the item on the
  of 3D printing.
                            spot. Alternatively, by simply scanning the code customers
                            could have the design printed out at a nearby facility, ready for
quick shipping and delivery. With the mass customization enabled by 3D printing and
the growing amount of data on consumer preferences, advertisers’ use of 3D printing for
marketing efforts may be bound only by their imaginations.

Use 3D Printing to Improve Internal Operations
Like any organization, the Postal Service could use 3D printing to improve its internal
operations and reduce costs. For example, it could use 3D printers to create
replacement parts for its vast fleet of aging delivery vehicles or its wide array of mail
processing equipment. In some cases, the companies that originally designed the
machines are no longer in business and are therefore unavailable to provide spare
parts. This makes it costly and time-intensive for the Postal Service to fix the machines
and it is likely that these repairs could be faster and cheaper with 3D printing. By
reducing parts expense and downtime, the Postal Service could both save significant
resources and improve service.

Additionally, the Postal Service could possibly use 3D printing as a way to facilitate
employee suggestions and spread ideas for improving operations across the country.
Employees in specific facilities might have ideas on how they could make operations
more efficient and simple prototypes could be 3D printed and shared throughout the
postal network. Finally, 3D printing might even allow the Postal Service to create
customized packing materials for individual items that are oddly shaped or otherwise
unsuited for ready-made boxes and packing supplies.


Conclusion
With 3D printing already changing major industries and promising to transform others, it
is clear that we are witnessing a critical point in the evolution of technology and

45
   For more information, please see U.S. Postal Service Office of Inspector General, Enhancing the Value of Mail
Follow-Up: Discussion Forum Recap, RARC-IB-14-001, April 3, 2014,
http://www.uspsoig.gov/sites/default/files/document-library-files/2014/rarc-ib-14-001.pdf.


U.S. Postal Service Office of Inspector General                                                                     July 7, 2014
                                                        18
RARC-WP-14-011                                           If It Prints, It Ships: 3D Printing and the Postal Service



manufacturing. Although nobody knows exactly how big the market will get or what
direction it will take, 3D printing is here to stay. It could have a major impact on the
Postal Service and countless other organizations in the United States and across the
globe.

As 3D printing democratizes production and design, it could become a fierce engine of
economic growth and job creation. We have not yet begun to see the rise of new
businesses taking advantage of this technological revolution, and we are only in the
early stages of new citizen demand for mass customization. By establishing a role in the
3D printing market, the Postal Service could put a compelling 21st century twist on its
historical mission to serve citizens and facilitate commerce.




U.S. Postal Service Office of Inspector General                                                      July 7, 2014
                                                  19
RARC-WP-14-011                                                         If It Prints, It Ships: 3D Printing and the Postal Service



Appendix A 3D Printing Case Studies
This appendix features examples of innovative ways people are using 3D printing. 46

Prosthetic Limbs
A carpenter in South Africa collaborated with
                                                              Figure 6: Young Boy Using Robohand
a design specialist in Washington State to
replace four fingers on his right hand that he
lost in an accident. MakerBot provided both
of them with a desktop 3D printer, and they
began trading ideas and tweaking the
design of the mechanical fingers. The 3D
printers allowed them to shorten the
prototyping time from weeks to just 20
minutes, as they traded files and tested new
designs from across the world. After the
carpenter’s successful creation of his own
3D printed fingers, which was dubbed
“Robohand,” he provided the design files                      Source: MakerBot Industries.
online for others to access.

The parents of a 5-year-old boy who was born with no fingers on his right hand soon
contacted the carpenter to learn more about the Robohand. The boy’s family was
unable to afford traditional prosthetics, and the boy would quickly outgrow such
                                                expensive devices anyway. 3D printing
   Figure 7: 3D Printed Prosthetic Limbs        offered them an opportunity to create
                                                custom-fit artificial fingers that allow the
                                                boy to grasp and hold objects for only $150
                                                — a fraction of the cost of traditional
                                                prosthetics, which can cost more than
                                                $10,000 per artificial finger. 47

                                                          The Robohand design has been
                                                          downloaded thousands of times by people
                                                          around the world and even adapted for
                                                          other needs. For example, a teenage boy
                                                          in Sudan lost both of his arms when a
                                                          bomb dropped on him while he was
 Source: MakerBot Industries.                             tending his family’s cows. This boy

46
   There are many examples of 3D printing applications available online, including on the MakerBot website at
http://www.makerbot.com/blog/category/makerbot-stories/ and the Stratasys website at
http://www.stratasys.com/resources/case-studies/.
47
   “Mechanical Hands From A MakerBot: The Magic Of Robohand,” MakerBot, May 7, 2013,
http://www.makerbot.com/blog/2013/05/07/robohand/ and “MakerBot and Robohand,” MakerBot, May 8, 2013,
http://makerbot-blog.s3.amazonaws.com/wp-content/uploads/2013/05/Rls_MakerBot_Robohand_May2013.pdf.


U.S. Postal Service Office of Inspector General                                                                    July 7, 2014
                                                        20
RARC-WP-14-011                                                            If It Prints, It Ships: 3D Printing and the Postal Service



received a 3D printed prosthetic arm based on the Robohand design, which only cost
about $100 (not counting the cost of the 3D printer and computer). The organization that
provided the 3D printed arm is now looking to use 3D printers to help amputees in other
conflicts across Africa and the rest of the world. 48

Customized Eyewear
Traditional eyewear is mass manufactured, limiting the ability to adjust the frames to
better fit people’s unique faces. However, Protos Eyewear is offering 3D printed
eyeglass frames that are manufactured to each individual’s facial structure. Customers
submit two photographs of themselves — one from the front and one from the side —
and select a frame style. If customers need prescription lenses, they can also submit
the necessary prescription information to Protos. The company then uses software to
modify frame designs to customers’ faces based on the photographs they submit. The
end goal is a pair of glasses that fits the exact contours of each customer’s face, to
provide the best fit and comfort possible. 49

                                                  Figure 8: 3D Printed Eyewear




              Source: Protos Eyewear.




48
   “MakerBot Stories, Project Daniel Takes Robohand to Sudan, MakerBot, Januray 30, 2014,
http://www.makerbot.com/blog/2014/01/30/project-daniel-takes-robohand-sudan/.
49
   “Eyewear 3D Printed to Fit You,” Protos Eyewear, 2014, http://protoseyewear.com.


U.S. Postal Service Office of Inspector General                                                                       July 7, 2014
                                                              21
RARC-WP-14-011                                                          If It Prints, It Ships: 3D Printing and the Postal Service



Historical Artifacts
Many historical artifacts are extremely fragile and cannot be moved. They are often
limited to only one museum or occasional traveling exhibits. If you are not able to visit
the specific museum that displays an artifact, you likely will never see it. However, 3D
printing is opening up new possibilities. For example, engineers recently scanned the
remains of King Tutankhamen and created a 3D printed replica. Because the engineers
followed a painstaking process of capturing every detail, and due to 3D printing’s layer-
by-layer precision, the 3D printed replica is allegedly virtually indistinguishable from the
actual mummy. 50

The Smithsonian can only display about 1 percent of its overall collection of 137 million
objects, artworks, and specimens. The millions of other artifacts are left outside the
public’s view. To bring this vast collection to the public, the Smithsonian has begun 3D
scanning selected objects and releasing the image files to the world. Anyone with a
computer and access to the Smithsonian’s public web portal can download these 3D
scans and, if they also have access to a 3D printer, have the scans printed out.
Educating the public is not the only benefit of this endeavor — 3D scanning and printing
could also allow researchers to leave original artifacts undisturbed because all the
researchers need to do is scan the object or the surrounding site, and then print it out
later. 51

                             Figure 9: 3D Scans of Abraham Lincoln’s Life Masks




           Source: Smithsonian Institution.




50
   Brooke Kaelin, “A 3D Printed Replica of King Tut’s Mummy,” 3D Printer World, August 3, 2013,
http://www.3dprinterworld.com/article/3d-printed-replica-king-tuts-mummy.
51
   “About Smithsonian X 3D,” Smithsonian Institution, http://3d.si.edu/about, and Eric Mack, “Smithsonian Now Allows
Anyone To 3D Print (Some) Historic Artifacts,” Forbes, November 13, 2013,
http://www.forbes.com/sites/ericmack/2013/11/13/smithsonian-now-allows-anyone-to-3d-print-some-historic-artifacts/.


U.S. Postal Service Office of Inspector General                                                                     July 7, 2014
                                                        22
RARC-WP-14-011                                                             If It Prints, It Ships: 3D Printing and the Postal Service



Appendix B Details on Analysis of Commercial
           Packages Supply Chain Volumes
For this project, we contracted with Laurits R. Christensen Associates, an economic
consulting firm with in-depth knowledge of U.S. Postal Service operations. Christensen
Associates has worked on postal issues since 1981 and performs assessments on
postal data systems for the Postal Service itself. 52 This appendix provides some details
on the process Christensen Associates used to assess the impact of 3D printing on the
Postal Service’s commercial packages supply chain.

For this analysis, Christensen Associates used a snapshot of the fiscal year 2013
(October 1, 2012 to September 30, 2013) commercial packages supply chain, with a
focus on parts of the supply chain that would be affected if a 3D printing revolution took
place. If a 3D printing revolution does not take place, then these effects would be less
significant. To the extent possible, Christensen’s analysis ignored the reasons for 3D
printing’s increase, be it technological advancement, societal trends, a combination of
both, or other factors entirely. Its analysis also ignored the speed of 3D printing’s
advancement.

Christensen based its analysis primarily on data from the Postal Service’s Electronic
Verification System (eVS). These data could be considered commercially sensitive, so
any raw numbers, mailer-specific, or other highly detailed information from eVS is not
included in this paper. Because eVS tracks critical information about each individual
package traveling along the Postal Service’s portions of the commercial packages
supply chain — such as piece weight, origin entry location, and destination location —
the database offers an examination of commercial package flows at an unprecedented
level. Overall, the eVS tracks about 70 percent of all commercial packages delivered by
the Postal Service. The database also provides information to determine the revenue
associated with each package tracked.

Christensen also assessed the weight profile of the Postal Service’s commercial
packages supply chain. To do so, it grouped most of the mailers listed in the eVS into
18 categories based on their primary business function. Nearly all of these categories
were specific to a particular type of product, such as clothing, jewelry, pharmaceuticals,
and so on. Christensen determined which of these categories were associated with
goods that could be affected by developments in 3D printing. For two categories that
were non-specific (“Courier/Fulfillment” and “National Retailer”), Christensen used data
from the U.S. Census Bureau’s Annual Survey of Retail Sales to identify related product
codes that would be likely to use the commercial packages supply chain and be
affected by 3D printing, and then incorporated calculations from this Census survey
information into its assessment of the eVS data.



52
     Please see the Christensen Associates website at http://www.lrca.com/postal/ for more information.


U.S. Postal Service Office of Inspector General                                                                        July 7, 2014
                                                           23
RARC-WP-14-011                                          If It Prints, It Ships: 3D Printing and the Postal Service



To create a baseline for comparing the potential effects of various 3D printing scenarios,
Christensen quantified the entire U.S. commercial packages supply chain, including
giving the Postal Service “credit” for packages that originate with private delivery firms
but are handed off to the Postal Service for final delivery. This assumption reflects the
fact that advancements in 3D printing that increase the number of commercial packages
shipped will affect both the packages that the Postal Service handles end-to-end as well
as the packages from private delivery firms for which the Postal Service handles final
delivery. Christensen derived volumes for private delivery firms from publicly available
sources.

Through these steps and other calculations, Christensen created a snapshot of the
entire U.S. commercial packages supply chain for fiscal year 2013. It then determined
volumes for lightweight (1.5 pounds or less) and heavy (more than 1.5 pounds)
packages, and further split the lightweight volumes into groups that would likely be
affected by 3D printing and those that would likely not be affected. With this baseline
established, Christensen created assumptions of impact for varying levels of intensity of
3D printing disruption (low, medium, and high) for each of the scenarios described in the
body of this paper. Finally, Christensen created revenue estimates for each scenario
based on the current class mix across packages at 2013 actual postal prices.




U.S. Postal Service Office of Inspector General                                                     July 7, 2014
                                                  24
RARC-WP-14-011                                                                                       If It Prints, It Ships: 3D Printing and the Postal Service




Appendix C Potentially Simultaneous Scenarios for
           3D Printing
The figure below summarizes how two potential 3D printing revolution scenarios could
affect the Postal Service. Each scenario results in an increase in annual revenue due to
increased package shipments. The scenarios are not meant to be mutually exclusive,
as it is easy to envision a world in which people buy some 3D printed finished products
from businesses while also printing some items at home. The estimates given in the
figure show the range of potential annual revenue growth, depending on how much 3D
printing disrupts the status quo.

                  Figure 10: New Revenue from Two Potential 3D Printing Scenarios


   3D PRINTING COULD BE A POSTAL BOON
   Under two potentially simultaneous scenarios, a 3D printing revolution could lead to more
   shipments of small, lightweight packages — the types of packages the Postal Service
   specializes in handling. Depending on the scenario and level of disruption, 3D printing
   could boost the Postal Service’s package revenue by $323 million to $1.1 billion per year.
   These estimates are based on 2013 package volume data.
                                                                Level of 3D printing disruption




     USPS AS 3D PRINTING HUB                                                                                                   Increases in USPS
                                                                                                    Low        $323               commercial
     Small and regional businesses 3D print                                                                                     package revenue
     products at or near Postal Service shipping                                                                                    (millions)
     nodes before entering products seamlessly
     into the mail. These businesses would likely                                                 Medium               $485
     compete on speed, so streamlining
     deliveries could help them to better serve
     customers — while also boosting package
     volume for the Postal Service.                                                                 High                     $646
                                                                Level of 3D printing disruption




     PRODUCTS PRINTED AT HOME                                                                       Low         $357
     People use in-home 3D printers to produce
     many of their items, rather than buying final
     products from retailers. While this could reduce
     both deliveries of finished products and brick-                                              Medium                         $727
     and-mortar purchases, deliveries of printing
     materials could surge, potentially giving a boost
     to the Postal Service. This scenario could be
     very profitable, but a slew of uncertainties and                                               High                                    $1,097
     potential risks make it highly unlikely.

     Source: USPS OIG graphic based on data from Christensen Associates.




U.S. Postal Service Office of Inspector General                                                                                                  July 7, 2014
                                                         25
RARC-WP-14-011                                                                  If It Prints, It Ships: 3D Printing and the Postal Service




Appendix D Retail Sectors that Could be Disrupted
           by In-Home 3D Printing
If Americans begin using in-home 3D printers to manufacture many of the products they
now buy from retailers, it could affect nearly 28 percent of the entire retail trade industry,
with as many as 45 billion products potentially being printed at home instead of
purchased at the store. 53 It is important to note that the likelihood of such a massive
disruption is very low. Even if in-home 3D printers take off, many people would likely
only print a limited number of items. Figure 11 outlines the sectors most vulnerable to
3D printing disruption, as well as the size of those sectors.

                      Figure 11: Retail Sectors Vulnerable to 3D Printing Disruption

                              VULNERABLE TO DISRUPTION
                              If a broad swath of Americans were to use in-home 3D
                              printers to create many of the items they need instead of
                              buying those products from retailers, it could turn the retail
                              sector upside down. More than 900,000 retailers with some
                              $1.16 trillion in sales could see some of their business
                              supplanted. The sectors and their sizes are outlined below.

                                                                    Number of          Total sales
                                            Retail sector
                                                                    businesses          (millions)

                              Miscellaneous retailers                 198,146             $48,611
                              Clothing                                187,528            $190,960
                              Gift, novelty, and souvenirs            103,351             $25,355
                              Electronics                             103,214            $143,850
                              Sporting goods                           61,453             $38,985
                              Jewelry                                  53,781             $44,979
                              Auto parts                               45,554            $162,322
                              General merchandise                      37,518            $408,080
                              Hobby, toys, and games                   36,888             $26,059
                              Shoes                                    30,853             $25,804
                              Sewing, needlework, and piece
                                                                       18,930             $10,189
                              goods
                              Household appliances                     16,998             $14,346
                              Musical instruments                      11,731             $6,314
                              Office supplies and stationary           10,958             $9,526
                               Source: USPS OIG graphic based on Christensen Associates analysis
                               of 2011 retail sales data.



53
  Based on analysis from Christensen Associates, using simplified assumptions about the average unit price in the
retail trade industry.


U.S. Postal Service Office of Inspector General                                                                             July 7, 2014
                                                               26
RARC-WP-14-011                                                         If It Prints, It Ships: 3D Printing and the Postal Service




                                    U.S. Postal Service Office of Inspector General
                                                 1735 N. Lynn Street
                                                 Arlington, VA 22209

                                                  Telephone: 703-248-2100
                                                      www.uspsoig.gov

                                     For media inquiries, contact Agapi Doulaveris
                                             Telephone: 703-248-2286
                                              adoulaveris@uspsoig.gov




U.S. Postal Service Office of Inspector General                                                                    July 7, 2014
